<html>
<title> - THE SHARING ECONOMY: A TAXING EXPERIENCE FOR NEW ENTREPRENEURS, PART II</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


THE SHARING ECONOMY: A TAXING EXPERIENCE FOR NEW ENTREPRENEURS, PART II

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON SMALL BUSINESS
                             UNITED STATES
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD
                              MAY 26, 2016

                               __________

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                              
                               

            Small Business Committee Document Number 114-063
              Available via the GPO Website: www.fdsys.gov
                   
                                ___________
                                
                                
                    U.S. GOVERNMENT PUBLISHING OFFICE
20-276                       WASHINGTON : 2017                    
________________________________________________________________________________________                   

For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7611061936150305021e131a065815191b58">[email&#160;protected]</a>  
                   
                   
                   
                   
                   
                   HOUSE COMMITTEE ON SMALL BUSINESS

                      STEVE CHABOT, Ohio, Chairman
                            STEVE KING, Iowa
                      BLAINE LUETKEMEYER, Missouri
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                         CHRIS GIBSON, New York
                          DAVE BRAT, Virginia
             AUMUA AMATA COLEMAN RADEWAGEN, American Samoa
                        STEVE KNIGHT, California
                        CARLOS CURBELO, Florida
                         CRESENT HARDY, Nevada
               NYDIA VELAZQUEZ, New York, Ranking Member
                         YVETTE CLARK, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                       BRENDA LAWRENCE, Michigan
                       ALMA ADAMS, North Carolina
                      SETH MOULTON, Massachusetts
                           MARK TAKAI, Hawaii

                   Kevin Fitzpatrick, Staff Director
                       Jan Oliver, Chief Counsel
                  Michael Day, Minority Staff Director
                            
                            
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Steve Chabot................................................     1
Hon. Nydia Velazquez.............................................     2

                                WITNESS

Ms. Nina Olson, National Taxpayer Advocate, Internal Revenue 
  Service, Washington, DC........................................     3

                                APPENDIX

Prepared Statement:
    Ms. Nina Olson, National Taxpayer Advocate, Internal Revenue 
      Service, Washington, DC....................................    13
Questions for the Record:
    None.
Answers for the Record:
    None.
Additional Material for the Record:
    None.

 
                     THE SHARING ECONOMY: A TAXING 
               EXPERIENCE FOR NEW ENTREPRENEURS, PART II

                              ----------                              


                         THURSDAY, MAY 26, 2016

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2360, Rayburn House Office Building, Hon. Steve Chabot 
[chairman of the Committee] presiding.
    Present: Representatives Chabot, Velazquez, and Meng.
    Chairman CHABOT. The Committee will come to order. I want 
to wish everybody a good morning. We thank you all for being 
here, and we have a special thanks for our witness here who has 
taken time away from her very busy schedule to be with us 
today. I would note that we may very well, in fact, we will be 
interrupted by votes here shortly. When that occurs, we will 
wrap up, not immediately, but we have 15 minutes to get over 
there and vote. So at some point between the bells going off 
and us having to be there, we will wrap up and come back after 
to continue the hearing, but depending on how many votes we 
have we could be gone anywhere from a half-hour to an hour or 
so.
    We are here today to follow up on a hearing we held earlier 
this week where we heard from a distinguished panel of experts 
about the challenges faced by small businesses and 
entrepreneurs in the new sharing economy. We heard first-hand 
about the challenges they are facing in dealing with a broken 
tax code and outmoded IRS policies that are not really designed 
to accommodate them.
    As I said in Tuesday's hearing, the IRS has not been a part 
of the solution as taxpayers struggle to navigate the new 
sharing economy. Too often it seems to have been part of the 
problem itself. This failure has left on-demand platform 
companies and their workers confused and frustrated as they try 
to do the right thing and pay the taxes that they owe. 
Congressional committees like ours have a duty to provide 
robust oversight of the IRS and ensure they are providing small 
businesses with clarity and treating them fairly. When the IRS 
is behind the times, it puts small businesses behind the eight 
ball. This must change.
    We are hearing from entrepreneurs across the country that 
they do not fully understand their tax obligations for sharing 
economy income. In many cases, they do not even receive an end-
of-the-year statement documenting that income. As if that was 
not bad enough, here is the real kicker. Many on-demand 
companies say they would gladly provide tax compliance training 
but they do not because they are afraid the IRS will reclassify 
their relationship and subject them to a whole new host of 
regulations and obligations. The current tax and regulatory 
climate clearly is not working for entrepreneurs in the sharing 
economy. We must do better and the IRS has a key responsibility 
here.
    I recently noticed that the IRS' own mission statement on 
its own Web site says the agency will ``provide America's 
taxpayers top quality service by helping them understand meet 
their tax responsibilities and enforce the law with integrity 
and fairness to all.'' The time has come for the IRS to live up 
to this standard and help our entrepreneurs in the new sharing 
economy.
    Today, we are pleased to have with us a true expert on 
these issues, the national taxpayer advocate, Nina Olson. She 
has examined these issues in-depth and will share some 
proposals to address these changes. We are very much looking 
forward to your testimony here today, and I would now like to 
yield to the ranking member, Ms. Velazquez, from New York, for 
her opening statement.
    Ms. VELAZQUEZ. Good morning. Thank you, Mr. Chairman, and 
thank you for having this meeting. Welcome, Ms. Olson.
    The sharing economy is based on a model in which 
individuals are able to borrow or rent assets owned by someone 
else. The number of companies employing the sharing economy 
platform has grown significantly over the past decade. Yet 
despite the popularity and success of these companies, the 
sharing economy presents unique legal challenges. As we learned 
on Tuesday, the most hotly contested challenge posted by the 
sharing economy is the issue of worker misclassification. This 
issue arises when companies incorrectly classify their workers 
as independent contractors instead of employees.
    By classifying workers as independent contractors, 
companies do not have to provide the benefits that are legally 
required with employee status, which can greatly reduce their 
costs. As such, the legal classification of workers in the 
sharing economy has significant implications for workers, 
companies, and their consumers. While no one can agree on the 
proper label for these workers, a fact of the matter is that 
these businesses rely on these workers no matter how they are 
classified. And without workers, there is no business.
    We heard from private sector witnesses during our previous 
hearing about the benefits and challenges of the sharing 
economy business model. We even learned how the law is unclear, 
making it more difficult for small businesses to comply and 
harder for workers to understand their rights. Furthermore, 
this issue harms the nation's budget in lost tax revenue.
    We have already had a crackdown on worker misclassification 
by both the Treasury and the Department of Labor. However, the 
sharing economy remains an aberration in this concern because 
no one is quite sure how to apply the law. This committee is 
tasked with assisting small businesses, especially when there 
is no bright line test for compliance. However, we must also 
ensure workers are being treated fairly.
    Today, we are privileged to have the National Taxpayer 
Advocate to help us better understand the complexity 
surrounding this area of the law. It is important for this 
committee to fully comprehend what is the sharing economy so 
that we can work towards implementing clear change that is easy 
to understand for those small businesses that are operating in 
the sharing economy.
    I would like to add, Ms. Olson, that maybe in your 
testimony or later on, tell us how you see the IRS to be more 
effective in order to do their job. Because here in Congress, 
we love to vilify institutions and government, and if we cannot 
dismantle the agency, then we cut the budget. When you cut the 
budget, there are real consequences. As people in Chicago try 
to take a flight and miss the flight because of the long lines, 
we know that budget and budgetary constraints have 
consequences.
    Thank you. I yield back.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    If Committee members have opening statements prepared, we 
would ask that they be submitted for the record. I will take 
just a moment to explain our rules here as far as timing goes, 
which are pretty simple. You get 5 minutes and we get 5 
minutes, and there is a lighting system to help you out. The 
green light will be on for 4 minutes--yellow light for about a 
minute, and then the red light, if you would not mind kind of 
keeping within that. We will give you a little flexibility if 
you need it since we only have one witness here this morning.
    We are especially happy to have this witness because it is 
Ms. Nina Olson, who is the national taxpayer advocate, NTA, who 
is the voice of the taxpayer within the IRS and before 
Congress. She leads the Taxpayer Advocate Service, TAS, an 
independent organization within the IRS that helps taxpayers 
resolve problems and works for systemic change to mitigate 
problems experienced by groups of taxpayers.
    Throughout her career, Ms. Olson has advocated for the 
rights of taxpayers and for greater fairness and less 
complexity in the tax system. Ms. Olson was appointed to the 
position of national taxpayer advocate in January 2001. Among 
her many accomplishments, the IRS adopted the Taxpayer Bill of 
Rights in June 2014, for which Ms. Olson had long advocated. 
Congratulations on that.
    Prior to her appointment as the NTA, Ms. Olson founded and 
served as executive director of the Community Tax Law Project, 
the first independent section 501(c)(3) low-income taxpayer 
clinic in the United States. We thank you for that also. She is 
an attorney licensed in Virginia and North Carolina. We will 
not hold that against you, being a recovering attorney myself.
    Ms. Olson, you are recognized for 5 minutes. Thanks for 
being here.

 STATEMENT OF NINA OLSON, NATIONAL TAXPAYER ADVOCATE, INTERNAL 
                        REVENUE SERVICE

    Ms. OLSON. Thank you so much, Chairman Chabot and Ranking 
Member Velazquez. Thank you for inviting me to speak on the 
important and emerging topic of the sharing economy. In my 
written testimony, I focus mainly on two aspects of tax 
administration: the IRS presence in the sharing economy and 
ways to increase tax compliance among participants in that 
economy.
    Estimates show that over 2.5 million Americans are earning 
income through the sharing economy and that number is expected 
to continue its upward trajectory. Establishing the tax 
compliance norms in this emerging industry in its infancy will 
benefit participants in the tax system as this segment grows. 
Understandably, many of these new service providers may not 
fully comprehend their tax-filing obligations or have 
experience with the requisite tax recordkeeping.
    According to a recent survey conducted by NASE, 69 percent 
of entrepreneurs who participate in the sharing economy 
received absolutely no tax guidance from the companies with 
which they work. It bears saying that if a person working in 
the sharing economy called the IRS toll-free line today, he or 
she would hear a recording saying the IRS is not answering any 
tax law questions after April 15th, so please check IRS.gov. 
The same message is given to people asking tax law questions at 
the IRS walk-in sites. For a tax agency to not answer questions 
from taxpayers trying to learn what they need to do to comply 
is beyond unacceptable, it is absurd.
    There are many ways in which the IRS can provide improved 
taxpayer service and assistance to this growing sector. For 
example, many Uber drivers engage in an online forum where they 
can share information about or solicit advice on a wide range 
of topics. There is even a subforum dedicated to tax 
compliance, focused on 1099 income deductions and the IRS. 
Similarly, Airbnb hosts have created an online forum where 
hosts can share advice with other hosts, and there is a 
subforum dedicated to regulation tax issues. The IRS could 
convey helpful information through such online forums. It could 
even designate a representative to respond to questions in 
``ask me anything'' style on a Reddit forum for Airbnb or Uber 
users. Another benefit of these exchanges is that the IRS will 
learn about specific challenges and issues facing this segment 
of the economy and do a better job of tailoring its guidance 
for both taxpayers and IRS employees.
    While IRS publications contain helpful information, an 
Airbnb host would have to sift through a 24-page Publication 
527, Residential Rental Property, and an Uber driver would have 
to navigate through the 50-page Publication 463, Travel, 
Entertainment, Gift, and Car Expenses, and they still might not 
understand how these rules apply to themselves as service 
providers in a sharing economy. Thus, the IRS should develop 
and publicize a new publication for sharing economy 
participants that at a minimum provides a checklist of issues 
that first-time, self-employed persons participating in that 
economy should be aware of. It could also create a dedicated 
Web page containing tax tips for freelancers engaging in a 
sharing economy. Even better, the IRS could create an online 
wizard to walk taxpayers who are newly self-employed through 
the various steps one needs to take. For example, getting an 
employer identification number, making estimated tax payments, 
keeping books and records. Why not create a downloadable 
mileage log for taxpayers to use with prepopulated mileage 
rates for a given year that we set? Why not develop a calendar 
function that permits taxpayers to add the estimated tax 
payment due dates to their smartphone calendars? These steps 
would benefit all self-employed persons.
    In my reports to Congress and in my written testimony, I 
have made numerous proposals over the years designed to 
increase compliance among small businesses. Among other things, 
I recommend that Congress align the estimated tax payment 
deadlines with calendar year quarters that are easier to 
remember and to calculate net income, such as the last day of 
the month following the calendar quarter, rather than on April 
15, June 15, September 15, and January 31, which aligns to 
nothing whatsoever. Because research shows that taxpayers are 
more compliant in paying taxes on income subject to 
withholding, independent contractors should have the option to 
enter into voluntary withholding agreements with the entities 
to which they provide services.
    In conclusion, there is lots the IRS can do to establish a 
presence in the community, provide service to the participants, 
and provide guidance to shape the compliance norms of these 
taxpayers.
    Thank you, and I will be glad to answer any questions.
    Chairman CHABOT. Thank you very much. I will yield myself 5 
minutes.
    I will begin with the first question. I think you are 
correct that the IRS has a great opportunity to be at the 
forefront of tax compliance for the sharing economy, yet we 
have seen, as you indicated, very little action as of yet from 
the IRS in this area. Does the IRS not yet realize the looming 
issues that are here or are there other reasons for its failure 
to initiate some of the actions that you describe would be 
helpful?
    Ms. OLSON. I think that there is a recognition that this is 
a growing part of the economy. I think that the IRS moves 
slowly, and hearings such as this will help move it along. I 
think my office can play a role in instigating some activity, 
like these publications. I think issues about what can be done 
online, there are always concerns about whether the private 
sector will view that as intruding in their bailiwick, and my 
point there is I do not see that as competition. I see us 
working together, and we do, after all, own setting the mileage 
rates and own setting the deadlines and things like that.
    I think also if I can just say this, that worker 
classification is an issue. There is the ban on providing 
guidance, and so it becomes hard to develop a Web site if you 
are banned on providing anything other than just the rote, 
``here are the 20 factors'' type guidance, which is really not 
helpful in this environment.
    Chairman CHABOT. You brought up the current due dates for 
quarterly estimated payments and how they are so oddly spaced, 
and I was a sole practitioner attorney for years and filed my 
own stuff for myself and my employees. It is hard to figure, 
why is it like that, A, and why do they not make it just the 
quarters or some way that actually makes sense so that people 
do not have to sit down and remember, oh, yeah, the last one is 
in January? Is it the 15th or is it the 31st? When is it?
    Ms. OLSON. I do not know the historical reason. We were 
talking about that the other day. It might go back to some kind 
of budgeting issue at some point, money coming into the 
Treasury. We are actually poking around in the archives to find 
the reason. But we have been advised that it, at this point, 
would need congressional action. That is what we have been 
advised. I really think doing it on a quarter basis, you know, 
within 30 days after the quarter ends, makes sense. Trying to 
calculate net income on June 15th is silly and difficult.
    Chairman CHABOT. Thank you. Maybe this is one that the 
Ranking Member, myself, I mean, if it really does take 
congressional action, maybe we could work together and offer 
legislation that could be bipartisan and make it happen.
    Ms. OLSON. I think the self-employed persons of America 
would thank you.
    Chairman CHABOT. I think so. They could thank us both. We 
will work on it together.
    This is actually a very bipartisan Committee. We actually 
do work on stuff together. The other Committees are pretty 
awful, but this one is not. Except for the other two Committees 
I am on; those are good, too.
    A lot of my constituents have been receiving fraudulent 
calls from people claiming to represent the IRS and demanding 
money. The Ranking Member got them. I got them. You got them. 
The IRS commissioner himself, Mr. Koskinen, he got them. Our 
tax lawyer got them as well.
    I remember we had been literally on vacation and my wife is 
going through and listening and here is the IRS on the phone. 
She goes--I will not tell you what she said, but I cannot 
believe--the IRS, first of all, does not call you, but a lot of 
people do not know that. Especially what I am concerned about 
is seniors who may be more vulnerable to these kinds of frauds, 
and I have heard stories. I think it was you, actually, that 
told me some examples of these things which are really sad. 
Maybe tell an example, if you would, and what are we as the 
government doing to stop these things? Why is it so difficult 
to stop it?
    Ms. OLSON. The example that we had was my office received a 
number of packages by Federal Express that just contained a 
deposit slip of between $5,000 and $8,000 in it, and they were 
addressed to a particular person at the IRS headquarters in 
Washington, D.C., and it got delivered to us. This person is 
fictitious. Because it was overnight mail, we had a phone 
number for the taxpayers who sent these deposits and we called 
them. They explained to us that they had been called by someone 
who appeared to be an IRS employee and told them that we were 
sending the sheriff out to them if they did not go to a bank 
and deposit immediately between $5,000 and $8,000, and they 
were to stay on the phone until they got to the bank and made 
that deposit. Then, very cleverly, they were to send the 
deposit slip to the IRS headquarters building. If you went 
online you would see it was a legitimate address. The person 
that we talked to said it was the worst day of his life when he 
realized about 2 hours after he had transferred $8,000 what he 
had actually done.
    What the IRS is doing is they have a lot of information on 
the Web about tax scams and they have done a lot of public 
service announcements--not public service announcements but 
press releases. I think that public service announcements are 
the way to go, and I think we just, in congressional letters 
and everywhere, we need to get word out to people that if 
somebody is threatening to send the sheriff to you, the IRS 
does not do that.
    Chairman CHABOT. Maybe that is something that we ought to 
do. My time is expired so I will end it with this, but maybe on 
the forms that we get from the IRS as citizens, maybe there 
ought to be in great big letters on the envelopes that are 
going out and right at the top saying that the IRS does not 
call and threaten and that there is a lot of fraud about this 
so do not do it. I would put it in big red letters or red, 
white, and blue letters or something and let people know. In 
any event, it is particularly frustrating and outrageous that 
people are being preyed upon by other folks. My time has 
expired and I would now like to--the Ranking Member is 
recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you, Mr. Chairman.
    Ms. Olson, since 2010, the budget of the IRS has been cut 
by 18 percent and as I mentioned before, this has consequences. 
When you call in and you are a small business person who wants 
an answer, you want to get the answer right there, but instead 
we have an automatic system in place. I do not want to discuss 
the budget here. What I want to know is if the IRS has 
performed outreach to small businesses on this complex topic.
    Ms. OLSON. Not to my knowledge, and I am concerned about 
the IRS's small business outreach function. Back in 1998, when 
the IRS was reorganized, it created a unit called TEC that was 
solely charged with experts on small business issues and small 
business law and requirements to be in the communities and 
conduct outreach to the small businesses. In about 2004, they 
dissolved that organization and put all those experts back to 
work auditing or collecting instead of doing outreach and 
education to small businesses, and they centralized the unit. 
Today there are many States that have no person in the IRS 
dedicated to do outreach and education to the small businesses 
of that State, and I really think that is just foolish; that we 
need to do preventive education and outreach. If you do that, 
you will really solve problems and also hear the problems of 
that sector and be able to give better guidance going forward 
as well.
    Ms. VELAZQUEZ. That was in 2004, right?
    Ms. OLSON. Yeah.
    Ms. VELAZQUEZ. You can imagine now.
    Ms. OLSON. What it is like.
    Ms. VELAZQUEZ. Since 2010, the budget has been cut by 18 
percent.
    Ms. Olson, the common law 20-factor test to determine 
proper classification is complex, subjective, and does not 
always produce clear answers. The potential for errors and 
abuse is high and does not always produce the same results. 
Does the IRS provide examples to small businesses as an attempt 
to help employers define workers?
    Ms. OLSON. I think that the difficulty is that it is not 
supposed to give guidance on worker classification, so it is 
sort of stuck with producing training materials for its own 
employees that can be made public and people can read them. The 
average small business is not going to read that. The average 
worker is not going to read that. You can read court cases 
where it has been litigated and see what the courts look at. I 
was struck by something that HMRC, which is the U.K. tax agency 
did several years ago, they created a Web application, and it 
was based on the 20 factors, but they had questions that the 
business could go through and answer. If you answered them in a 
certain way, you would get an answer back that would say we 
think these workers are independent contractors or we think 
they are employees. If you wanted to keep that answer, then 
that would be binding unless you had lied materially on that 
thing. If you did not like the answer you did not have to 
accept it. You could proceed and ask for greater guidance. I 
thought that brought some certainty to people without it being 
definitive, and we have recommended that for several years and 
the IRS has never picked it up.
    Ms. VELAZQUEZ. They could administratively----
    Ms. OLSON. I do not know whether under the law, the way 
that Congress has banned them from issuing guidance, would that 
Web thing be interpreted as guidance?
    Ms. VELAZQUEZ. Thank you.
    Ms. OLSON. Yes.
    Ms. VELAZQUEZ. Many of the new economy entrepreneurs have 
had difficulty operating their businesses in a regulatory 
scheme that was formed for traditional brick-and-mortar 
businesses. With the changing environment in which companies 
conduct daily business, how can we adapt existing laws and 
regulations to make it easier to classify a worker?
    Ms. OLSON. I was really struck by some of the testimony 
earlier this week about a third way really that, our common law 
rules are based in 17th, 18th century law, and so what does 
that mean? That was very intriguing to me. The key factors 
there are withholding. Obviously, getting the money into the 
system, working on benefits for these people, particularly 
retirement savings because that is what comes with being 
classified as an employee, and is there some way to do that in 
this third type of worker that the economy seems to be moving 
to?
    We had proposed several years ago, in response to actually 
the Hair Salon Association coming to us and saying we have all 
these people who are renting booths in hair salons. They are 
clearly independent contractors but they are getting into 
trouble by not paying their estimated taxes. We were willing to 
withhold from them. We do not want them to be classified as 
employees, but we have already an employee on our staff who 
takes appointments and things like that. We would be willing to 
do it. It would make more stable workers. We have been advised 
by chief counsel in the IRS that that needs to be a legislative 
solution; that you give the IRS the authority to allow people 
to enter into voluntary withholding.
    Ms. VELAZQUEZ. That was my follow-up question you answered.
    Ms. OLSON. Yes. It needs legislation is what we have been 
told.
    Ms. VELAZQUEZ. Thank you.
    Chairman CHABOT. Thank you. The gentlelady's time is 
expired.
    The gentlelady from New York, Ms. Meng, who is the Ranking 
Member of the Agriculture, Energy, and Trade Subcommittee, is 
recognized for 5 minutes.
    Ms. MENG. Thank you, Ms. Olson, for being here today.
    My question stems from occasional inquiries that we get 
from some of our constituent small business owners who 
obviously many of them have fewer resources to spend on 
accountants working on complex tax problems. One of the issues, 
obviously, is worker misclassification but there are different 
issues that they face.
    I wanted to ask, what can we do to put small businesses on 
a more level playing field to help them? In the interest of 
time, part two of my question is what types of compliance or 
assistance services are available or maybe studies that have 
been done that could help us better assess the problem?
    Ms. OLSON. I will give you an example of something that I 
think really reduced the burden on small businesses. For years, 
we recommended that the IRS create a small business home office 
deduction EZ form where you had a standard deduction for home 
offices that you could do on square footage instead of doing 
all these calculations and things like that. It took a while 
but they adopted that. I think there are many opportunities 
like that in the law where you have a law and there is a 
deductible expense, but if you think about small business 
recordkeeping, there is a way to do it that could be a safe 
harbor or a standard deduction or something like that that 
would reduce recordkeeping and still guard against abuse in a 
way. I think there are a lot of opportunities there.
    I will come back to the fact that there is really not a 
geographic presence reaching out to small businesses in the 
IRS, and to me that is incredibly important because the small 
businesses in New York are different from the small businesses 
in Ohio, from the small businesses in Iowa and Montana. They 
all have different kinds of needs and challenges. You have to 
have somebody in the field knowledgeable about their issues 
that can also raise them to the IRS. In terms of service, I 
really think a geographic footprint of a small business 
outreach function would allay a lot of concerns and give the 
IRS a lot of information to do a better job reaching these 
taxpayers.
    Ms. MENG. Then finally, in terms of businesses and people 
just being more technologically savvy, are there apps or 
software available that could, in a quicker way before IRS may 
develop some sort of policy to geographically help them, to be 
able to help them either track their workers or help them more 
fully comply?
    Ms. OLSON. There are many excellent products on the market 
and they all cost money, and I am not saying we should not have 
them, and as a matter of fact, many small businesses really 
appreciate them. I think what I have been focusing on is what 
things can the IRS do that could interface with those products 
that could get the small business off to the right start? 
Because if you can get them right at the beginning, and build 
trust at the beginning so if they do have compliance problems 
they are willing to come in and get help rather than letting it 
pyramid and snowball, that is what I think the IRS needs to 
focus on, and then how it can partner with the private sector 
and some of the products that they have, feed our information 
into their products so that taxpayers can use them in that way.
    Ms. MENG. Thank you. I yield back.
    Chairman CHABOT. The gentlelady yields back.
    We will go on a second round. I will recognize myself for 5 
minutes, or perhaps less if the other members would like to 
jump in.
    First of all, you specifically mentioned that taxpayers 
need to be able to speak with someone and be able to reach the 
IRS year-round, and I think you mentioned that as of April 
15th, after that they are told to go to the Web site. What type 
of service is the IRS currently providing that we should know 
about? What can we do to make this a much more taxpayer-
friendly experience right now? Is it just a budget issue or are 
they going to tell us, well, we just need more money and more 
staff and then we can do more things?
    Ms. OLSON. I think it is two things. The budget is driving 
so much. On the taxpayer service side you just do need more 
bodies to pick up the phone and talk to taxpayers. It is not 
just talking. It is, you know, pick up the phone and stay on 
the phone. Listen to the taxpayer and try to get to the bottom 
of what really is their concern because sometimes they do not 
express it well themselves. That takes time, and that means you 
need enough people to be able to spend that time and get to the 
problem up front.
    The other thing is that the IRS does want to move as many 
people as possible to an online presence because that is less 
expensive. I challenge some of that because I think if the 
taxpayer does not understand online, they will do something 
wrong and you will spend more expensive resources downstream 
collecting and auditing and things like that. But they are 
trying to build a strong online presence where people can see 
what is going on in their account. Maybe have an account where 
if they are in dog breeding they would get guidance about dog 
breeding issues and things like that. That is several years 
down the line and I think that is a good direction to go in. 
But I just have to say, I have been in tax since 1975, and 
there is no substitute for talking to taxpayers and 
understanding what their confusion is, what they need, and 
learning from them even as we are teaching them. There is just 
no substitute and that is human beings.
    Chairman CHABOT. Thank you. You recommended that the IRS 
encourage voluntary withholding agreements in exchange for a 
safe harbor. Would you recommend that such agreements cover 
employment taxes, income taxes, or both, or what would you 
suggest?
    Ms. OLSON. I think it needs to be both. Our concern was in 
particular self-employment tax because sometimes with expenses 
these businesses are so marginal that they owe very little 
income tax. We had focused on that self-employment tax which 
always shocks the small business person and drives them 
underground sometimes. That is just not the direction we want 
to go. But we did acknowledge both. So many businesses that are 
working in this gig economy or like in the salon association or 
the travel agent association, they are already in the 
withholding system because they do have formal employees, like 
a secretary or receptionist, already in their system. It is 
just adding some more and doing the withholding. There is a 
business reason for it because then they get better stability 
among their workforce.
    Chairman CHABOT. Thank you. You had talked about the IRS 
creating an online wizard to help sharing economy workers. How 
exactly would you envision that working?
    Ms. OLSON. I think if someone was thinking I am going into 
this component of it, I am selling something on Etsy or I am 
working with some platform, that you could go to this and it 
would walk you through and say, the first thing you need is an 
employer identification number. Go here. We have a device 
online, but we are directing them. Then when you are done the 
wizard says, okay, here is some information about 
recordkeeping. If you are doing driving, you need to have a 
contemporaneous record of your mileage and here is what it 
looks like. Actually, here is an app where you could enter each 
thing and we would multiply it by the mileage rate and each 
year that we update the mileage rate we will update it and you 
can download it to your smartphone. Things like that. Depending 
on the business, we could craft some one-page guidance to them 
and direct them to that. There is all sorts of information out 
there. Finding it and not having to go to 5 different, 7 
different, 10 different places to do it is the problem.
    Chairman CHABOT. Thank you. I have got about 40 seconds 
left. Let me just get back to the business about the fraudulent 
calls which are occurring. We talked about an example of what 
happened and what is happening. Would you let us know if you 
can talk to the IRS what their response is about making this a 
much higher visibility thing on what they are sending out 
anyway so we can inform the public?
    Ms. OLSON. Yes, absolutely.
    Chairman CHABOT. Then secondly, and finally, what do you 
hear back from the IRS about why they have not been more 
successful in stopping this type of behavior since they know it 
is going on and since it is so widespread?
    Ms. OLSON. It is very hard to track down, but I will note 
that just this week apparently they did catch some people that 
were responsible for one particular scam that basically brought 
in about $40 million, so they are pursuing these 
investigations. I have to say it is very difficult to do that 
because they are moving, they are in different parts of the 
country, they are all over the place.
    Chairman CHABOT. Thank you very much. My time is expired.
    The ranking member is recognized for 5 minutes.
    Ms. VELAZQUEZ. Thank you. I can imagine that this issue is 
more pervasive among immigrants.
    Ms. OLSON. Yes.
    Ms. VELAZQUEZ. Maybe that is why I am constantly called 
asking for my Social Security or that I owe money here and 
there.
    Ms. Olson, we heard on Tuesday about the penalties 
businesses face for improper classification of workers. In your 
experience, have you had many complaints about penalties for 
misclassification?
    Ms. OLSON. We get a regular number of cases every year 
dealing with worker classification, and they are both from what 
you would call the employer and the worker. They go in 
different directions. What I am particularly concerned about is 
just the lack of clarity in the actual investigations. I think 
both the employers and the workers are confused about the basis 
for decisions, and that makes it difficult for either party to 
appeal, seek appellate rights, and in some instances they are 
not allowed to have appellate rights. We have written about 
that in the past. I think there are real opportunities for 
improving that process. But I do have to come back to the point 
on the IRS not being able to do guidance has sort of 
constricted it and kept it at that 20-factor level because that 
is all it can do.
    I have not talked with the IRS division about this. We have 
talked with taxpayers and representatives of the group, and we 
have used this hearing to formulate some very specific 
recommendations. I do think that what we will do is work with 
the forms and pubs section to come up with a document, a mini-
pub for the sharing economy, and we are working right now on 
maybe working on part of our Web site. We have a toolkit, tax 
prep toolkit, that we could have some tips for the sharing 
economy, and maybe from that get the IRS jump started. 
Sometimes we are a little more nimble than the rest of the IRS.
    Ms. VELAZQUEZ. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Chairman CHABOT. Thank you. The gentlelady yields back.
    Does the gentlelady from New York have any other questions? 
Okay.
    We have done something very unusual. We are wrapping up 
early and we are doing it before the votes. We greatly 
appreciate your testimony here today. In addition to the 
testimony that we had on Tuesday, I think we learned a lot, 
really a great deal about the tax challenges faced by 
participants in the so-called sharing economy, and we got into 
some of the problems that all taxpayers have, whether they are 
in the sharing economy or not.
    I am particularly pleased that we were able to get somewhat 
into the fraudulent stuff that is going on out there because 
there are people being victimized. To the extent that we can 
reduce or eliminate that, we certainly ought to be about that. 
We look forward to working with you and other stakeholders to 
rise to the challenge of encouraging the growth and continued 
success of the so-called sharing economy. It is a rapidly 
growing example of how the free market, if it is working right, 
can work and how we are going to create the jobs of the future.
    I would ask unanimous consent that members have 5 
legislative days to submit statements and supporting materials 
for the record.
    Without objection, so ordered. If there is no further 
business to come before the Committee, we are adjourned. You 
can all go home. Thank you.
    [Whereupon, at 10:42 a.m., the Committee was adjourned.]
                            
                            A P P E N D I X

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
